£tate of Betti gork
Court of appeals
BEFORE: HONORABLE PAUL G. FEINMAN
Associate Judge
THE PEOPLE OF THE STATE OF NEW YORK,
Respondent,
-against-

ORDER
DENYING
LEAVE

RASHEEN J. GAMBLE, A/K/A SHEENIE,
Appellant.

Appellant having applied for leave to appeal to this Court pursuant to Criminal Procedure
Law § 460.20 from an order in the above-captioned case;1*
UPON the papers filed and due deliberation, it is
ORDERED that the application is denied.

Dated: April 27, 2020

Associate Judge
* Description of Order: Order of the Appellate Division, First Department, entered January 28,
2020, affirming a judgment of the Supreme Court, Bronx County, rendered November 13,2013,
and order, same court, entered on or about December 20,2017.

R-\

Kapnick, J.P., Oing, Singh, Moulton, JJ.
1087310873A &
M-65

Ind. 1347/09
The People of the State of New York,
Respondent,
-againstRasheen J. Gamble also known as Sheenie,
Defendant-Appellant.

Robert S. Dean, Center for Appellate Litigation, New York
(Abigail Everett of counsel), for appellant.
Rasheen Gamble, appellant pro se.
Parcel D. Clark, District Attorney, Bronx (Kyle R. Silverstein of
counsel), for respondent.
Judgment, Supreme Court, Bronx County (Margaret Clancy, J.i,
rendered November 13, 2013, convicting defendant, after a ]ury
trial, of murder in the second degree and attempted assault in
the second degree, and sentencing him to an aggregate term of
25Vi years to life, and order, same court and Justice, entered on
or about December 20, 201.7, which denied defendant's CPL 440.10
motion to vacate the judgment, unanimously affirmed.
The court properly denied, without a nearing, defendant
pro se's CPL 440.10 motion and appellate counsel's supplemental
CPL 44G.1Q motion asserting ineffective assistance 'of counsel.
Defendant argues that there was no legitimate strategic reason
8

£H

for pretrial counsel's consent, without first consulting
defendant, to the People's untimely (see CPL 240.905 motion to
compel a DNA sample,

Assuming that counsel's consent under these

circumstances was objectively unreasonable, we find that
defendant was not prejudiced under either the state or federal
standards (see People v Benevento, 91 NY2d 708, 713 7x4 1199Sj ,
Strickland v Washington, 466 US 668, 694 [1984]).

Independent of

any DNA evidence, there was overwhelming evidence of defendant's
guilt, including, among many other things, the presence of
defendant's fingerprints at a location that unequivocalxy
connected him to the crime (see People v uewis, 44 AD3d 422,
422-23 [1st Dept 2007], Iv denied 9 NY3d 1035 [2008]).

The court

also providently exercised its discretion in determining that a
hearing would serve no useful purpose, particularly in iigh-_ Oi
defendant's detailed submissions regarding his interactions Wx
pretrial counsel, who was deceased.
The court providently exercised its discretion in precluding
defendant from cross-examining a witness about an arrest that had
resulted in a dismissal, because trial counsel had insufficient
information to demonstrate that the charges were r.ot dismissed on
the merits, and thus failed to demonstrate a good faith ba»is ior

3

8-a

the inquiry {see People v Padilla, 28 AD3d 365 list Dept 2006],
Iv denied 7 NY3d 792 [2006]},

Counsel presented only unsupported

speculation that the charges were dismissed on speedy trial
grounds.

Moreover, based on information that the trial

prosecutor received from the prosecutor who had handled the
witness's case, it appeared that the dismissal may have been on
the merits.

In any event, any error was harmless {see People v

Crimmins, 36 NY2d 230 [1975]).

We also find no violation of

defendant's right to cross-examine witnesses (see Delaware v Van
Arsdall, 475 US 673, 678-679 [1986]).
The challenged portions of the prosecutor's summation do not
warrant reversal {see People v D*Alessandro, 184 AD2d 114, 118120 [1st Dept 1992], lv denied 81 NY2d 884 ;i993j).

Although the

prosecutor's comments on the lack of an "innocent explanation"
for certain evidence tended to shift the burden of proof, the
court's curative instructions were sufficient to prevent any
prejudice.

However, the prosecutor's arguments about defendant's

failure to make a 911 call at the time of the incident, or to
assert his innocence during a call to his mother after his
flight, were inappropriate under the facts of the case, and the
court should not have permitted the jury to consider them.
Nevertheless, these errors were harmless in light of the
10

e-3

overwhelming evidence.
The court providently exercised its discretion in denying an
adverse inference instruction regarding evidence rendered
unavailable by the flooding of a storage facility by Hurricane
Sandy (see e.g. People v Daly, 140 AD3d 593, 594 [1st Dept
2016]}, and defendant's arguments to the contrary are unavailing.
We perceive no basis for reducing the sentence.
We have considered and rejected defendant's remaining
claims, including those contained in his pro se supplemental
brief.
M—65 - People v Gamble
Motion for an adjournment and permission to
file a pro se supplemental reply brief,
denied.
'THIS CONSTITUTES THE DECISION AND ORDER
OF THE SUPREME COURT, APPELLATE DIVISION, FIRST DEPARTMENT.
ENTERED:

JANUARY 28, 2020

CLERK

.11

*

—
UNIFORM SENTENCED COMMITMENT!'

UCS-854(»20U)

STATE OF NEW YORK
SUPREME COURT , COUNTY OF BRONX

PRESENT: RON CLANCY.M

79
Court Part:
J.FERRERIS
Court Reporter:
Superior CL Case#: 01347-2009

i.

III H!lIII II tllllllililllllill III 111

The People of the State of New York

Accusatory Instrument Charges!

-vs-

l

RASHEENJ GAMBLE
08/06/1986

02023648K

;

5
3
l
4

2 ATT-MURDER2
3 MURDER2
4 ASLT2

Defaxlmt

Male

Croat# Cavf/Scction & Subdivision

CPW3

63441190Z

PL 265.02(03)
PL 110-125.25(01)
PL 125.25(01)
PL 120.05(02)

To
02/08/2009
THE ABOVE NAMED DEFENDANT HAVING BEEN CONVICTED BY [ Q PLEA OR {/jVERDICT ] , THE MOST SERIOUS
OFFENSE BEING A ( 0FELONY OK □MISDEMEANOR OR □VIOLATION] , IS HEREBY SENTENCED TO:

DOB

Sex

NYSID #:

Crime

Criminal Justice Tnecking #

Count

■ I-aw/Section
Subdivision

a

j
;

ii MURDER2

I

PL 1 {25.25(01)

2 Arr-ASLn

6

PL lil0-120.05(02)

Datc(8} of Offense:

SMF,tlate
ar Terror

Minimum
Period

Maximum

25 Y

Life

I 1/3 yrs

4Y

;

Terra

Post-Release
Supervision

Definite /
Determinate **

CJTN

3
4

5

**

NOTE: For etch DETERMINATE SENTENCESmposed. a corresponding period of POST-RELEASE SUPERVISION MUST be indicated (PL § 70-45).
shall run CONSECUTIVELY u> counts} 1
shall run CONCURRENTLY with each other [/*[ Countfe) 6
Sentence imposed herein shall run CONCURRENTLY with ____________________________ and/or CONSECUTIVELY to __________ ____
Sentence imposed herein shall include a CONSECUTIVE
term of [j j PROBATION OR Q CONDITIONAL DISCHARGE ],
with an Ignition Interlock Device condition, that, shall commence upop the defendant's release from imprisonment [Ft § ti&2l]
aitd/of 0RUO TYPE:
Conviction includes:
WEAPON TYPE:
Court certified the Defendant a SEX OFFENDER fCar. L §It>8-<!{
yeant
Charged as a JUVENILE OFFENDER- age at tithe crime committed:
Adjudicated a YOUTHFUL OFFENDER (CPL i 720.28)
'
CASAT ordered {PL 5 68.04(5)1
SHOCK INCARCERATION ordered [PL J 60.84(7))
Execute as a sentence of PAROLE SUPERVISION [CPL i 410.91)
Coo fits

Re-soiteneai as a PROBATION VIOLATOR LCPL $ 410.70)
1

i Asa:. 1 j Second j J Second Vioisnt

‘

Predicate Sex l)iTentler w/prior VFO

Second Drug ( j Second Drug w/priur VFO

Predicate Sex Offender

Second Citiid Sexual Assault I J Persistent

Persistent Violent

|

FELONY
OFFENDER

Paid N«t Paid Deferred (If deferred, court must ffle|wr1tten order (CFL §420.40(5))) Paid Not Paid Deferral (If deferred, court must file written order {CPI §420.40(5)))
,/,

.

> M.W£btor? Suretorgs!

$325.00

i

Enc

$

{

j Restitution

DMA Fee

$50 00
$

:

[Sex Offender Registration Fee
$
Supplemental Sex Off. Victim Fee $

DWI/Othe

j

~

~7

f~j Crime Victim Assistance Fee

S25.00

$_

TOE SAID DEFENDANT BE AND HEREBY IS COMMITTED TO ifiE CUSTODY OF THE:
[7]nYS Department of Corrections! Services (NYDOCS) until released W accordance with the law, and being a person sixteen (16) years nr older not presently in the custody of die
NYSDOCS, (New Yurt City Department of Corrections) is directed® deliver tire defendant to the custody of NYSDOCSai provided in 7 NYCRR Part 103.
□JNYS Department of Correctional Services (NYDOCS) until released iaj accordance with the iaw, and being a person sixteen (Id) years or older presently in the custody of
NYSDOCS. defendant shall remain in the custody df the NYSDOCS.!
□ NTS Office of Chiltfren and Family Services in accordance with the |a*jr. being a person less dam sixteen (16) years of age at (Iw time the crime was committed.

□

i

‘Swnftrefe 6tS*r at

County JaiWjQrrectional Facility

P«a*stkxt1k

Mrf»Krty £»»«*»**

TO BE HELD UNTIL THE JUDGMENT OF THIS COURT IS SATISFIED.
REMARKS:

!

CKtaaSWartw

F-/f
Pre-Sentence investigation Rcjiart Atrachod:
Order of Protection Issued:
Order of Protection Attached:

h

11/13/2013
Dale

/ Yes

LUIS M. DIAZ
Clerk of the Court

No

Yes

✓

Yes

/* No

No

by: _J_

□>

Jununij

SIMM Ho.

it: Original Sentence Date:

XA I %

lignnture

SCC
Title

f

.

1

, .V

1
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF THE BRONX: PART 28
—x

!

THE PEOPLE OF THE STATE OF NEW YORK
Ind. No. 01347-2009
-against‘

CPL § 440,10 DECISION

RASHEEN GAMBLE,
Defendant.
x
Clancy, J:
On October 11, 2013, defendant was convicted, following a jury trial, of Murder In
the Second Degree (PL § 125.25[1]) and Attempted Assault in the Second Degree (PL §§
110/120.05[2]).

The charges stemmed from two separate shootings in defendant’s

!

apartment building. In the first shooting, defendant fired a shotgun twenty-three times at
the door of an apartment, striking Luis Lopez in the stomach and leg. Mr. Lopez survived.
Approximately twenty-five minutes later, defendant shot security guard Brian McCray to
death inside the building’s security booth. Video surveillance showed defendant shooting
Mr. McCray three times, with the third and final shot at close range as Mr. McCray lay
defenseless on the floor.
On November 13, 2013, the court sentenced defendant to twenty-five years to life
in prison for the murder, and a concurrent term of one and one third to four years in prison
for the attempted assault. Defendant has yet to perfect his appeal of these convictions.
Defendant now moves to vacate this judgment, pursuant to CPL § 440.10, on the
ground that it is the result of the ineffective assistance of counsel under state and federal
law.1 The People oppose. For the following reasons, the motion to vacate is denied.
After the entry of a judgment, a defendant may move to vacate the judgment on the

!

I
I
1

Although defendant initially filed a pro $e motion to vacate, the court subsequently
appointed the Center for Appellate Litigation, at appellate counsel’s request, to represent
defendant on the motion to vacate as well. Appellate counsel adopted defendant's pro se
motion and filed a supplemental motion in support.

6-5

ground that it was obtained in violation of defendant’s rights under the State or Federal
Constitutions.

(CPL § 440.10[1][h)). A motion to vacate must be denied when the

judgment is pending on appeal and there are sufficient facts on the record of the underlying
proceedings to permit adequate review on appeal. (CPL § 440.10[2][b]). In contrast,
where an ineffective assistance of counsel claim is based on something that purportedly
occurred outside the record that is not subject to appellate review, the failure to appeal is
irrelevant to the analysis and the claim may properly be raised in a collateral attack upon
a judgment of conviction. (See People vAngelakos, 70 NY2d 670, 673 {1987] [citations
omitted]). A motion to vacate may aiso be denied where an essential allegation of fact is
contradicted by a court record. (CPL §440.30[4][d]).
Defendant was represented by two separate attorneys. Patrick Bruno, who has
since passed away, represented defendant pre-trial. Maria Tobia, who was appointed to
replace Mr. Bruno at defendant's request, represented defendant up to, and including, the
trial. The most damaging evidence against defendant consisted of latent fingerprints
connecting defendant to the shotgun used in the murder of security guard Brian McCray
and the attempted assault of Luis Lopez, a DNA match between defendant's DNA profile
and forensic evidence recovered from the crime scene, eyewitness testimony identifying
defendant as the shooter, and evidence of defendant’s flight.
Defendant alleges various pre-trial deficiencies by Mr. Bruno. Defendant claims that
Mr. Bruno was ineffective for failing to conduct any investigation and for failing to inspect
evidence that was destroyed by Hurricane Sandy. Defendant aiso claims that Mr, Bruno
was ineffective for consenting to an untimely discovery motion, filed by the People, to
compel him to provide a DNA sample to compare to the forensic evidence recovered from
the crime scene. Defendant claims that Ms. Tobia was also ineffective for failing to
conduct any investigation or inspect evidence. Defendant also claims that Ms. Tobia was

2

6-£

ineffective for not raising Mr. Bruno's ineffectiveness, failing to challenge the legality of a

i

search warrant, failing to move to reopen a suppression hearing based on the trial
testimony, failing to request a missing witness charge, and for entering into a stipulation
with the People at trial. Finally, defendant claims that Ms. Tobia was ineffective in failing

i

I

to request that a lesser-inciuded offense be submitted to the jury and, instead, leaving the
decision to defendant.
First and foremost, the court notes that most of these claims, except for counsels'
alleged failure to investigate and Ms. Tobia's purported conversation with defendant about
a lesser-inciuded offense, are record-based and would permit adequate review on appeal.
As such, defendant’s motion to vacate on these individual bases is denied. (CPL §
440.10[2][b]).
The court also notes that defendant has failed to provide any affidavit from trial
counsel to support his claims.2 "The failure to include an affirmation from counsel, or an
explanation for the failure to do so, . . . warrant[s] the summary denial of a defendant’s
postconviction motion."

(See People v Wright, 27 NY3rd 516, 522 [2016] [citation

omitted]).3 It is evident that appellate counsel communicated with Ms. Tobia, via email,
2 Defendant purportedly sent a letter to Ms. Tobia seeking an affidavit in support of
his pro se motion. {Notice of Motion to Vacate Judgment CPL § 440.10, Exhibit 3A). This
letter, however, was sent to the wrong address. As such, there is no evidence that this
letter was ever received by Ms. Tobia.
3 Although defendant relies on Second Department case law for the proposition that
an affidavit from counsel is not necessary where defendant’s claim is hostile and adverse
to trial counsel (see People v Radcliffe, 298 AD2d 533 [2d Dept 2002]), the court notes that
where an ineffective assistance claim requires an expansion of the trial record, the First
Department has consistently held that summary denial of a such a motion is proper where
the moving papers either fail to include an affirmation by trial counsel or an explanation for
the absence of such an affirmation. (See, People v Stewart, 295 AD2d 249, 249-50 [1st
Dept 2002] [citing People v Chen, 293 AD2d 362, 363 [1st Dept 2002], appeal denied, 98
NY2d 696 [2002]], appeal denied, 99 NY2d 540 [2002]; People v Johnson, 292 AD2d 284
[1st Dept 2002] [citing People v Morales, 58 NY2d 1008 [1983]], appeal denied, 98 NY2d
698 [2002]).
3

Q>-7

i

*%

concerning this case. (Defendant’s Reply Affirmation in Support of § 440.10 Motion to
Vacate Conviction, Exhibit I). In the email exchange, Ms. Tobia referred to the case being
difficult and a “disaster" prior to her entry. Ms. Tobia also appeared to be willing to help
appellate counsel and answered questions regarding evidence that appellate counsel
found in Ms. Tobia's file. Noticeably absent is any indication that Ms. Tobia was aware that
defendant was questioning her own effectiveness. Therefore, contrary to defendant's
position, the email exchange does not demonstrate that trial counsel “is not willing to admit
that she was ineffective," thereby relieving defendant of the obligation to substantiate all
the essential facts through sworn allegations from counsel.

(CPL § 440.30[1]).

Accordingly, defendant’s motion to vacate based on Ms. Tobia’s claimed ineffectiveness,
including her failure to investigate and her purported off-the-record conversation with
defendant about submission of a lesser-included offense, is denied. (CPL § 440,30[4][b].
Wright, 27 NY3rd at 522).
Defendant’s claim that counsel failed to challenge the legality of the search warrant
is summarily rejected. In a decision dated September 14, 2012, this court specifically
denied defendant’s motion to controvert the search warrant. As such, this portion of
defendant’s motion is also denied in that an essential allegation of fact is contradicted by
the record. (CPL § 440.30[4][d]).
Defendant's claim of ineffective assistance based on Mr. Bruno’s alleged failure to
investigate "is unreviewable on direct appeal since it involves matters outside the record
that would require an expansion of the record by way of a" motion to vacate. (People v
Bello, 23 AD3d 152,153 {1st Dept 2005] [citations omitted]). However, given Mr. Bruno’s
death and defense counsel’s assertion that Mr. Bruno’s closed files were discarded after
his death (Notice of Motion to Vacate Judgment CPL § 440.10, Exhibit 2E), it would now
be impossible to expand the record in anyway beyond the parties’ submissions. As such,

4

i

S-8
!

this portion of defendant’s motion is denied without a hearing. (People v Coito, 259 AD2d
288,289 [1st Dept 1999] [motion properly denied without a hearing where trial counsel was
deceased and was the only person who could have provided material information before
the motion court], appeal denied, 93 NY2d 1002). Nevertheless, the court finds that all of
defendant’s ineffective assistance claims fail on the merits as well.
It is well-settled that effective assistance of counsel under New York law is provided
✓,-v

by “meaningful representation" when viewed in light of the evidence, the law, and the
circumstances of each particular case, when viewed in totality. (People v Ford, 86 NY2d
397,404 [1995] [citing People v Baldi, 54 NY2d 137,147 [1981 ]). Moreover, the test of an
attorney’s effectiveness is not perfect representation but reasonable competence (People
v Modica, 64 NY2d 828, 829 [1985]). To prevail on such a claim the defendant must
demonstrate that he was deprived of a fair trial by less than meaningful representation.
(People v Flores, 84 NY2d 184, 187 [1994] [citing People v Benn, 68 NY2d 941, 942
[1986]], revd on other grounds by Flores v Demskie, 215 F3d 293 [2d Cir 2000]). To meet
this burden, defendant must “demonstrate the absence of strategic or other legitimate
explanations” for trial counsel's allegedly deficient conduct. (People v Caban, 5 NY3d 143,
152 [2005] [quoting People v Rivera, 71 NY2d 705, 709 [1988]]).
Meaningful representation under the New York State standard for effective
assistance encompasses a prejudice component that focuses on the fairness of the
process as a whole instead of its particular impact on the outcome of the case. (People
v Caban, 5 NY3d 143,156 [2005] [citing People v Benevento, 91 NY2d 708, 714 [1998]).
Although the New York standard for ineffective assistance does not require the same
showing of prejudice as the federal standard, it remains a significant, though not

5

6-8

v

t

i

indispensable, element in assessing whether a defendant has received meaningful
representation. (People vStultz, 2 NY3d 277, 283-84 [2004]).
[

In contrast, to prevail on a Federal claim of ineffective assistance of counsel,
defendant must first show that counsel’s performance was deficient in that the attorney’s
representation fell below an objective standard of reasonableness, in light of prevailing
professional norms. (Strickland v Washington, 466 US 668, 668-69 [1984]). Defendant
must also show that the claimed deficiency prejudiced him to the extent that “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” {Strickland, 466 US at 694). For the following
reasons, the court finds that defendant has failed to demonstrate that Mr. Bruno or Ms.
Tobia were ineffective under both state and federal law,
Had defendant been convicted of both murder and attempted murder, defendant
would have been facing a term of imprisonment of fifty years to life. Despite the strength
of the People’s case, however, Ms. Tobia obtained an acquittal on the attempted murder
charge.

On the existing record, the court finds that defendant received meaningful

representation and that defendant has failed to demonstrate “the absence of strategic or
other legitimate explanations for counsel's alleged shortcomings.” (People v Git, 285 AD2d
7, 11 [1sl Dept 2001] [citing People v Rivera, 71 N.Y.2d 705, 709 [1988]]). Nor has
defendant established that he was prejudiced by these alleged shortcomings.
Defendant claims that Ms. Tobia was ineffective for failing to object to a
criminologist’s testimony on confrontation clause grounds. Counsel can hardly be deemed
ineffective for failing to raise an issue that would not be decided for another four years.
(See People v John, 27 NY3d 294 [2016]). As such, Ms. Tobia's failure to raise a
6

e-io

confrontation clause objection was consistent with the prevailing professional norms at the
time of the trial. {See People v Brown, 13 NY3d 332 [2009]).
As to defendant’s claim that Ms. Tobia was ineffective for failing to request the
lesser-inciuded offense of Manslaughter in the First Degree, the trial record demonstrates
that Ms. Tobia consulted defendant several times on this issue before the jury was
instructed. Accordingly, the court finds that defendant’s claim that Ms. Tobia left the
decision up to him is not credible considering her involvement and engagement with the
court in the charge conference. Moreover, the court notes that the defenseless victim was
shot at close range with a shotgun, making it less likely that a jury would find that the
shooter intended anything other than death. The court also notes that Ms. Tobia's defense
was focused on the mis-identification of defendant. As such, the decision not to pursue
the manslaughter charge was strategically sound.
Likewise, Ms. Tobia’s decision to enter into a stipulation with the People concerning
defendant’s phone call to his mother was strategically sound. That decision avoided the
mother being called as a witness and limited the facts that went to the jury.
The court also finds that there was no basis for Ms. Tobia to move to reopen the
suppression hearing during the trial because the trial testimony would not have materially
affected the court’s determination of the suppression motion. (See People v Clark, 88
NY2d 552, 555 [1996]). As the People correctly note, it is not ineffective assistance where
counsel forgoes a strategy that would have been unsuccessful. (People v Gray, 27 NY3d
78, 83 [2016]).
Nor was there any basis upon which to request a missing witness charge.
Defendant has not shown that the uncalled detective would have provided non-cumulative

S-ll

*„

i

testimony regarding a material issue about evidence that was already in the case. (See
generally, People v Gonzalez, 68 NY2d 424 [1986]).
As the People correctly argue, there are several reasons why a defense attorney
would consent to a motion to compel a DNA sample, not the least of which is the potential
exclusion of defendant as a contributor to the forensic evidence recovered from the crime
scene. Moreover, the preclusion of evidence is never required for the violation of a statute
unless a constitutionally protected right is implicated. (See generally. People v Patterson, 78
NY2d 711, 717 [1991]; see also People v Beecham, 25 Misc3d 1214A [Sup Ct Westchester
Co 2009] [citing Patterson, supra)). Given that a discovery motion implicates a statutory, as
opposed to a constitutional right, this court has routinely exercised its discretion4 by
granting late motions to compel DNA samples, particularly in the most serious of cases.
In this regard, this court would likely have granted the People’s motion to compel even if
Mr. Bruno had challenged it as untimely, and the court does not find that defendant has
demonstrated the lack of a strategic basis for Mr. Bruno’s decision to consent to the
People’s motion to compel.
In any event, even if the court were to assume that Mr. Bruno’s failure to challenge
the People’s motion to compel was a deficiency that fell below an objective standard of
reasonableness, defendant has not established that he was prejudiced by this deficiency.
A police officer who responded to the shooting observed a trail of blood leading to
defendant’s mother’s apartment. The officer also observed the trail of blood continue into
4 The statutory framework gives the court the discretion to fashion the appropriate
remedy for a parties’ failure to comply with any of the discovery provisions. This discretion
includes ordering discovery, granting a continuance, issuing a protective order, prohibiting
the introduction of certain evidence, or taking "any other appropriate action." (CPL §
240.70[1]).
8

s-ta

* *'

the apartment and into a bedroom, where the officer also observed blood on the floor and
walls of the bedroom.

Defendant's mother reported that the bedroom belonged to

defendant and, pursuant to a search warrant for hair, fibers, and serological evidence
(Affirmation in Opposition, Exhibit 4), the police recovered a hair pick, hair brush, and four
swabs of serological evidence from the apartment. The hairs and serological evidence
recovered pursuant to the search warrant were not tested by the People. Nevertheless,
if counsel had successfully opposed the discovery motion as untimely, the People clearly
would have tested this other evidence already in their possession to connect defendant to
the biological evidence recovered from the crime scene. As such, defendant could not
have suffered prejudice from counsel’s decision to consent to the motion because the
result of the proceedings would not have been different.5
As to Mr. Bruno's purported failure to investigate or inspect the evidence that was
subsequently destroyed, defendant fails to establish how any particular investigatory steps
that were lacking, or the inspection and testing of the evidence, would have been
reasonably likely to have changed the result of the proceedings.
Based on the foregoing, defendant’s motion to vacate is denied.
This constitutes the order and decision of the Court.

Dated:

December 20, 2017
Bronx, New York

MARGARET L. CLANCY, JUDGI

5 The fact that this evidence was subsequently destroyed due to contamination by
Hurricane Sandy is of no moment given the time line of this case.

9

